’

T

LOUISIANA DEPARTMENT OF JUSTICE
LITIGATION DIVISION
P. O. Box 94095, Capitol Station
. Baton Rouge, LA 70804-9095
Telephone: (225) 342-8495
Fax: (225) 342-4952
CERTIFICATE OF SERVICE
I certify that a copy of the foregoing has been served upon counsel for all
represented parties and has been served upon all pro se parties to this proceeding by
mailing the same to each by first class United States mail, properly addressed and postage
prepaid on this

day of

, 2001.

John PoullardDOC# 98999
' . ! ,
David Wade Correctional Center
670 Bell Hill Rd.
Homer, LA 71040

ANDRff CHi

Additional material
from this filing is
available in the
Clerk's Office.

